4/18/2016

SFEFCU ­ VISA Disclosure

Skip to Main Content

The following disclosure represents important details concerning your credit card.
The information about costs of the Card is accurate as of 4/18/2016. You can
contact us to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES:
VISA PLATINUM, CLASSIC, AND SECURED
Annual Percentage Rate
(APR) for Purchases,
Cash
Advances,
& depending on your credit history. This APR will vary with the market based on the Prime
Balance Transfers
Rate.

9.75%, 10.75%, 13.75%, 15.75%, or 17.75%

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge
you interest on purchases if you pay your entire new purchase balance by the due date
each month. We will begin charging interest on cash advances and balance transfers on
the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge None
For Credit Card Tips
To learn more about factors to consider when applying for or using a credit card, visit the
from
the
Federal
website of the Federal Reserve Board at http://www.consumerfinance.gov/learnmore
Reserve Board
FEES:
Fees to Open or Maintain your
Account:
­Annual Fee:
None
­Application Fee:
None
Transaction Fees
­Balance Transfer:
­Cash Advance:
­Foreign Transaction:

Penalty Fees
­ Late Payment:
­ Over­the­Credit Limit:
­ Returned Payment:

None
None
1% of each transaction in U.S. dollars if the transaction involves a currency
conversion
0.8% of each transaction in U.S. dollars if the transaction does not involve a
currency conversion
Up to $25.00 if your payment is late
None
Up to $20.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."

In this Agreement, "You" and "your" mean any person who accepts this Agreement or uses the Card. The "Card" means
any credit card issued to you or those designated by you under the terms of this Agreement. "We", "us", "our" and the
"Credit Union" means South Florida Educational Federal Credit Union or its successors.
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND
JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT
EXTENDED UNDER THIS AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS
UNDER STATE AND/OR FEDERAL LAW. THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE
ISSUANCE OF CREDIT UNDER THIS AGREEMENT. IF YOU ARE IN DEFAULT,WE CAN APPLY YOUR SHARES TO
THE AMOUNT YOU OWE. Shares and deposits in an Individual Retirement Account or any other account that would
lose special tax treatment under state or federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans may also secure your obligations under this agreement.

Using Your Card.
You can purchase or lease goods and services from any merchant who honors your Card, and you may obtain cash
advances from financial institutions and ATM machines that accept the Card, up to your maximum credit limit. You agree
not to present your Card or obtain a cash advance for any extension of credit in excess of your available credit limit ;
however, if you do exceed your credit limit, you agree to make immediate payment sufficient to bring the balance below
the credit limit. Certain purchases and cash advances require authorization prior to completion of the transaction. In
some cases, you may be asked to provide identification. If our system is not working, we may not be able to authorize a
transaction, even though you have sufficient credit available. Also, for security reasons, we may block the use of your
Card at certain merchants and in certain countries or geographic areas. We will have no liability to you or others if any of
these events occur.

Personal Identification Number (PIN).
We may issue a Personal Identification Number (PIN) for use with your Card. This PIN is confidential and should not be
disclosed to anyone. You may use your PIN and your Card to access your account, and all sums advanced will be

https://www.sfefcu.org/visadisclosure.html

1/5

4/18/2016

SFEFCU ­ VISA Disclosure
added to your account balance. In the event a use of your PIN constitutes an Electronic Funds Transfer, the terms and
conditions of your Electronic Funds Transfer Agreement may affect your rights.

Promise To Pay.
You promise to pay us in U.S. dollars for (a) all purchases, cash advances, and balance transfers made by you or
anyone whom you authorize to use the Card; (b) all Interest Charges and all other charges or fees; (c) collection costs
and attorney's fees as permitted by applicable law, and any costs incurred in the recovery of the Card; and (d) credit in
excess of your credit limit that we may extend to you.

Illegal Transactions.
You agree that your Card and account will not be used to make or facilitate any illegal transactions as determined by
applicable law; and that any such use will constitute an event of default under this Agreement. We may decline any
transaction that we believe to be illegal under applicable law, including but not limited to any transaction involving or
relating to any gambling activity. You agree that we will have no liability or responsibility for any such use by you or any
authorized user(s); or for declining any such transaction. You further agree to indemnify and hold us harmless from any
suits, liability, damages or adverse action of any kind that results directly or indirectly from such illegal use. You promise
to pay us any and all amounts owing on your Card for any transactions made by you, even if the transaction is
determined to be illegal.

Joint Accounts.
Each of you will be responsible, jointly and severally, for the repayment of amounts owed, regardless of who initiated
any transaction under the account.

Others Using Your Account.
If you allow anyone else to use your account, you will be liable for all credit extended to such persons. You promise to
pay for all purchases and advances made by anyone you authorize to use your account, whether or not you notify us
that he or she will be using it. If someone else is authorized to use your account and you want to end that person's
privilege, you must notify us in writing, and if he or she has a Card, you must return that Card with your written notice for
it to be effective. Ownership of Card. Your Card remains our property and may be cancelled by us at any time without
notice. You agree to surrender your Card and to discontinue use of the account immediately upon our request.

Interest Charges.
Average Daily Balance including new transactions: Interest Charges will accrue on your average daily balance
outstanding during the month. To get the average daily balance, we take the beginning balance each day, add any new
purchases, cash advances, balance transfers or other advances, and debit adjustments and subtract any unpaid late
charges. This gives us the daily balance. Then, we add up all the daily balances for the billing cycle and divide that by
the number of days in the billing cycle. We then multiply that by the periodic rate corresponding to the Annual
Percentage Rate on your account. If you have different rates for purchases, cash advances or balance transfers,
separate average daily balances for each will be calculated and the appropriate periodic rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on purchases by paying the full amount of the new
balance for purchases each month by the date on which the payment is due. Otherwise, the new balance of your
account, and subsequent advances from the date they are posted to the account, will be subject to an Interest Charge.
You cannot avoid Interest Charges on cash advances; even if you pay the entire cash advance balance by the payment
due date, you will incur the Interest Charges accrued from the date the cash advance is posted to your account.

Fees.
In addition to the Interest Charges set forth above, you agree to also pay any and all fees that you incur as disclosed to
you on your Truth­in­Lending Statement or similar disclosures (as may be amended from time to time), or as disclosed to
you during the term of your Card.

If Your Card is Lost or Stolen or if an Unauthorized Use Occurs.
You agree to notify us immediately if your Card is ever lost or stolen or if an unauthorized use may have occurred.
"Unauthorized use" means the use of the Card by someone other than you who does not have actual, implied or
apparent authority for such use, and from which you receive no benefit. The telephone number to call is (305) 270­5254.
You agree to follow up your call with notice in writing to us at: 7800 SW 117th Avenue, Miami, FL 33183. You also agree
to assist us in determining the facts, circumstances and other pertinent information relating to any loss, theft or possible
unauthorized use of your Card and comply with such procedures as we may require in connection with our investigation.
You will be liable for any unauthorized use only if we can prove that you were grossly negligent in your use or handling
of your Card, or if we can prove that you used your Card fraudulently.

Minimum Payment Due; Crediting of Payments.
Payments are due in the amount and on the date disclosed on your billing statement. If your payment is received by us
on a business day at the address and by the time designated on the billing statement, it will be credited to your account
on the date of receipt. If payment is made at any location other than the address designated on the periodic statement,
credit for such payment may be delayed up to five (5) days. Payments will be applied in any order we determine, subject
to applicable law.

Allocation of Payments: Each payment by you will be allocated first to pay the Interest Charge due on retail
purchases, then to pay the Interest charges due on cash advances, then to pay the minimum principal payment due on
retail purchases, then to pay the minimum principal payment due on cash advances. Any payment in excess of the
minimum payment due will be applied to the highest­rate balance first. If all balances have the same rate, payments in
excess of the minimum payment will be allocated first to retail purchases, then to cash advances, unless you tell us
otherwise.

Default; Acceleration; Credit Suspension; Collection Costs.
You will be in default if: (1) you fail to make any payment on time; (2) if you fail to keep any promises you have made
under this Agreement or under other Agreements you have with us; (3) if you die; (4) if you file a petition in bankruptcy or
have a bankruptcy petition filed against you, or if you become involved in any insolvency, receivership or custodial
proceeding; (5) if anyone attempts to take any of your funds held by us via legal process or if you have a judgment or tax
lien filed against you; (6) if you make any false, inaccurate, or misleading statements in any credit application or credit
update; or (7) if we, in good faith, believe that your ability to repay what you owe is or soon will be impaired, or that you
are unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of your full account balance without giving you
notice. If immediate payment is demanded, you agree to continue paying interest charges and fees until what you owe
has been paid, and any shares that were given as security for your account may be applied towards what you owe. You
agree to pay all reasonable costs of collection, including court costs and attorney's fees, and any costs incurred in the
recovery of the Card, subject to applicable law. Even if your unpaid balance is less than your credit limit, you will have
no credit available during any time that any aspect of your account is in default.

Additional Benefits/Card Enhancements.
We may from time to time offer additional services to your Account at no additional cost to you. You understand that we
are not obligated to offer such services and may withdraw or change them at any time.

Convenience Checks.
We may, at our discretion, issue checks to you which may be used for any purpose other than making a payment for

https://www.sfefcu.org/visadisclosure.html

2/5

4/18/2016

SFEFCU ­ VISA Disclosure
credit to your account. By signing such check, you authorize us to pay the item for the amount indicated and post such
amount as a cash advance to your account. We do not have to pay any item which would cause the outstanding balance
in your account to exceed your credit limit.

Credit Information.
We may from time to time request personal information from you or obtain credit reports from the credit reporting
agencies for the purpose of updating your credit status. Your failure to provide such information when requested by us
may result in suspension of credit privileges under this Agreement, including your ability to obtain any future advances
by any means. You authorize us to investigate your credit standing when opening or reviewing your account. You
authorize us to disclose information regarding your account to credit bureau and creditors who inquire about your credit
standing.

Foreign Transactions; Currency Conversion.
Purchases and cash advances made in foreign currencies will be billed to you in U.S. dollars. The conversion rate in
dollars will be a rate selected by the card company from a range of rates available in wholesale currency markets for the
applicable central processing date, which rate may vary from the rate the card company itself receives, or the
government­mandated rate in effect for the applicable central processing date in each instance.All transactions
processed outside of the United States (which may include internet transactions) will be charged a foreign transaction
fee in the amount disclosed on your Truth­in­Lending Statement (as amended from time to time).

Termination; Change­in­Terms.
We may, by written notice, terminate this Agreement at any time, subject to applicable law. You may terminate this
Agreement by written notice. Termination by either party shall not affect your obligation to repay any payments made for
your account resulting from use of the Card as well as Interest Charges and fees incurred. We may change the terms of
this Agreement, including the method of calculating the periodic rate, at any time, by written notice, subject to applicable
law. Use of the Card constitutes agreement and acceptance of any change in terms, unless applicable law requires
otherwise. Our failure to exercise any of our rights or to take any action shall not constitute a waiver of those rights, or an
amendment or change in any of the terms of this Agreement.

Late or Partial Payments.
Any payment that delays the reduction of your balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment ­ you will still need to make the minimum scheduled payment
by the next scheduled due date to keep your account current. We may accept late payments, partial payments, checks or
money orders marked "payment in full" and such action shall not constitute final settlement of your account or a waiver or
forgiveness of any amounts owing under this Agreement.

Enforcement.
We do not lose our rights under this or any related agreement if we delay enforcing them. If any provision of this or any
related agreement is determined to be unenforceable or invalid, all other provisions remain in full force and effect.

Returns and Adjustments.
Merchants and others who honor the Card may give credit for returns or adjustments, and they will do so by submitting a
credit slip which will be posted to your account. If your credits and payments exceed what you owe us, the amount will
be applied against future purchases and cash advances. If the credit balance amount is $1 or more, it will be refunded
upon your written or verbal request.

Plan Merchant Disputes
We are not responsible for the refusal of any plan merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless: (a) your purchase was made in response to
an advertisement we sent or participated in sending you; or (b) your purchase cost more than $50 and was made from a
plan merchant in your state or within 100 miles of your home; and only if you have made a good faith attempt, but have
been unable to obtain satisfaction from the plan merchant. You must resolve all other disputes directly with the plan
merchant. We do not warrant any merchandise or services purchased by you with the Card.

Statements and Notices.
Statements and notices will be mailed to you at the most recent postal address or e­mail address (if you have elected to
receive such documents via electronic means) you have given us. Notice sent to any one of you will be considered
notice to all.

Notification of Address Change.
You will notify us promptly if you change your address for any reason. In order to prevent identity theft, your identity may
need to be verified before we act upon the notification.

Copy Received.
You acknowledge that you have received a copy of this Agreement.

Governing Law.
This Agreement shall be construed under federal law and state law in the state in which we are primarily located, and
the venue shall be located in the county and state in which we are primarily located. Operating regulations of Visa may
also apply. This Agreement is the contract that applies to all transactions even though the sales, cash advance,
convenience check, credit or other slips you sign or receive may contain different terms.
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es) listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do, we are not required to investigate any
potential errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:

https://www.sfefcu.org/visadisclosure.html

3/5

4/18/2016

SFEFCU ­ VISA Disclosure
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we
have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.

While we investigate whether or not there has been an error:
We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that
amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable
interest and fees. We will send you a statement of the amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your
bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill
is correct.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was
based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at the address(es)
listed on your statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
Last Updated: 09/2015

https://www.sfefcu.org/visadisclosure.html

4/5

4/18/2016

https://www.sfefcu.org/visadisclosure.html

SFEFCU ­ VISA Disclosure

5/5

